           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




    Inventory Review at the
    National Records Center


  February 2004   A-07-04-20426




  AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   February 18, 2004                                                              Refer To:

To:         Ramona Schuenemeyer
            Acting Regional Commissioner
             Kansas City

From:       Assistant Inspector General
             for Audit

Subject: Inventory Review at the National Records Center (A-07-04-20426)



        OBJECTIVE
        Our objective was to determine whether the National Records Center (NRC) maintains
        and accounts for Title II case folders in accordance with the Social Security
        Administration’s (SSA) policies and procedures.

        BACKGROUND

        SSA stores millions of case folders at three folder
        storage facilities: Rolling Heights Megasite in
        Baltimore, Maryland; Wilkes-Barre Folder Servicing
        Operation in Wilkes-Barre, Pennsylvania; and the
        NRC in Independence, Missouri.1 SSA components
        request folders from these facilities to facilitate
        claims actions and it is essential that the process for
        requesting and receiving folders from the facilities is
        timely and accurate to provide high-quality, citizen-
        centered service to SSA’s customers.2 The Office of
        the Inspector General (OIG) performed reviews at
                                                                                    Entrance to the NRC




        1
          Title XVI folders are stored at the Wilkes-Barre Folder Servicing Operation in Wilkes-Barre,
        Pennsylvania. Title II disability folders for individuals under 55 years of age are stored at the Rolling
        Heights Megasite in Baltimore, Maryland. The NRC stores all other Title II folders, as well as folders that
        the Rolling Heights Megasite cannot accommodate.
        2
            SSA’s Strategic Plan 2003-2008.
Page 2 – Ramona Schuenemeyer

the three folder storage facilities after receiving complaints from SSA components that
folders were not received timely.3

We performed tests of the NRC’s electronic and physical inventories. To test the
electronic inventory, we traced a sample of 300 folders recorded in the Processing
Center Action Control System (PCACS)4 as located at the NRC on August 5, 2003, to
their physical location within the facility. To test the physical inventory, we traced a
sample of 300 folders physically located at the NRC facility on August 12, 2003, to
PCACS to ensure the folder locations were properly recorded in the system. See
Appendix A for additional background information and the scope and methodology of
our audit.

RESULTS OF REVIEW
We found that NRC generally maintains and accounts for Title II case folders in
accordance with SSA’s policies and procedures. However, our tests of the physical
inventory identified 13 of 300 folders improperly recorded in PCACS. We also found
that NRC did not update the folder location in PCACS for folders shipped to and
received from the program service centers (PSC).

FOLDERS WERE NOT PROPERLY RECORDED IN PCACS

We selected 300 folders physically located at the NRC and determined whether the
case folders were properly recorded in PCACS. We identified 13 folders physically
stored at the NRC that were not properly recorded in PCACS. Specifically:

       • Five folders were listed in PCACS as “SSN not found,” which means that the
         folder was destroyed.5 These folders should have been destroyed instead of
         stored at the NRC.

       • Three folders showed “QUES QUES” in PCACS which indicates that the folder
         cannot be located. One of these folders should have been destroyed. The
         other two folders should have been identified in PCACS as stored at the NRC.
         If these folders are needed for a claims action, the PSC will have to create a
         new folder.


3
 This report is the final in a series of three OIG reports on SSA’s paper records storage process. The
other reports, Case Folder Storage and Retrieval at the Social Security Administration’s Megasite Record
Center (A-04-99-62006) and Audit of the Wilkes-Barre Folder Servicing Operation (A-04-03-13040), are
available on the OIG website at http://www.ssa.gov/oig.
4
  PCACS is a software system used by SSA as a case control system to pinpoint the exact physical
location and movement of SSA’s millions of folders.
5
 Prior to December 2002, it was the policy to enter “SSN not found” on PCACS once folders were
destroyed. The policy now is to enter “DESTR” in the file location for the folder.
Page 3 – Ramona Schuenemeyer

       • Two folders were identified in PCACS as being located at a PSC instead of the
         NRC. If the folder was needed for a claims action, the PSC would be contacted
         for the folder but would be unable to locate the folder. Accordingly, the
         requester may have to wait longer than necessary for the folder or the PSC may
         have to create a new folder to send to the requester. See “Folder Locations
         Were Not Properly Updated in PCACS” on page 4 of this report for additional
         information on folder movement between the NRC and PSCs.

       • Two folders were identified in PCACS as being stored at an NRC location
         different from where they were actually found at the NRC. Upon further
         investigation, folders with the same Social Security number (SSN) as these two
         folders were found at the locations shown on PCACS. The two folders for each
         SSN should have been filed together in one location.6

       • One folder was listed in PCACS as being stored electronically when in fact a
         paper folder was present at the NRC. The paper folder should have been
         destroyed.

Of the 13 folders improperly recorded in PCACS, 12 folders were sent to NRC by other
storage facilities as part of large folder shipments.7 These folders were improperly
recorded in PCACS prior to being shipped to NRC. However, NRC did not identify that
the folders were improperly recorded in PCACS because the folders were placed
directly into NRC’s inventory without being scanned into PCACS. Large folder
shipments were not scanned into PCACS because of limited NRC resources. Instead,
NRC relies on the purification process to identify errors in folders received from other
storage facilities.8

Seven of the 13 folders should have been destroyed and were identified on the master
beneficiary records (MBR)9 as destroyed. However, the folders were still stored at the
NRC. Given the current reading in PCACS, these folders will never be selected for
destruction. Instead, they will remain at the NRC until they are discovered during the
purification process. We project that approximately 562,000 folders are physically


6
 The NRC entered into an agreement with a contractor to provide clerical and file support (see
Appendix A). According to the contract, “…two or more unstapled folders found with the same SSN shall
be rubber-banded together.”
7
 Folder shipments NRC received from other storage facilities ranged from approximately 265,000 to
1,228,000 folders.
8
 The purification process involves performing an inventory on every folder to match folders located at the
NRC with what is listed in PCACS. Due to the large number of folders at the NRC, the purification
process is performed in segments. The 13 folders identified as errors were not located in any of the
segments that have been purified, indicating that the purification process is effective.
9
 The MBR is a magnetic file of every Retirement, Survivors and Disability Insurance beneficiary. It
contains information, such as folder location, date of entitlement, and date of suspension or termination.
Page 4 – Ramona Schuenemeyer

stored at the NRC that should be destroyed (see Appendix B). The additional storage
cost for these folders is estimated at about $35,000 annually.10, 11

FOLDER LOCATIONS WERE NOT PROPERLY UPDATED IN PCACS

                                    When NRC sends a folder to a PSC, the NRC does not
                                    change the folder location in PCACS to show folder
                                    movement. NRC stated it would take additional staff to
                                    update the folder location in PCACS when folders are
                                    sent to a PSC.12 So, the NRC leaves the responsibility
                                    to the PSC to update the folder location in PCACS. If
                                    the PSC does not update PCACS, the physical folder
                                    location will not be the same as the location listed in
                                    PCACS. If folders are requested that show the NRC
                                   as the location in PCACS, but are physically located at
      Boxes of Folders at NRC      the PSC, SSA spends valuable resources trying to
                                   locate the folders. Specifically, the contractor is paid to
search for the folders at the NRC. If the folder is not located within 14 days, the folder
will automatically be requested again. The second request results in the contractor
being paid again to conduct a much more comprehensive search than when the folder
was initially requested. If the folder still cannot be located, NRC staff will contact the
PSC to try to locate the folder.

When a PSC sends a folder to the NRC, it is again up to the PSC to update the location
of the folder in PCACS. In our audit, we found two folders located at the NRC that had
a PSC location in PCACS. So, the PSCs do not always update PCACS in a timely
manner. If one of these folders was requested, unnecessary time would be expended
looking for these folders. Finding or replacing missing medical folders is costly. Even
more costly is the erroneous continuation of Title II disability benefits to an individual
who is no longer disabled but continues to receive benefits because SSA personnel
cannot locate the medical folder containing prior diagnostic information. Although the
NRC has a policy in place to check a sample of incoming folders from PSCs to ensure
the correct location is recorded in PCACS, errors may not be discovered as our review
disclosed.



10
  NRC provided us a cost of $1.23 to store a box of 20 folders. OIG projected that 562,000 folders
should be destroyed or 28,000 boxes of 20 folders each. Subsequently, 28,000 boxes at the cost of
$1.23 storing fee per box of folders arriving at the annual storage cost of $35,000.
11
  In its comments to our draft report, SSA stated that the projected annual storage costs of
$35,000 would decrease each year as more files are subjected to the purification process. We agree,
however, our calculations were based on the 562,000 folders that should have been destroyed as of the
date of our inventory test, August 12, 2003.
12
   NRC updates the folder location in PCACS for folders sent to other SSA components, such as field
offices or Disability Determination Services, but not to PSCs.
Page 5 – Ramona Schuenemeyer

Since millions of folders are transported annually, it is imperative that PCACS reflect the
actual location of these folders. To safeguard folders and to allow SSA to identify the
exact location and movement of folders at all times, the NRC should update all folder
locations in PCACS when folders depart and arrive at the NRC. If PCACS is up-to-date,
the potential for misplaced or lost folders should decrease along with the additional
resources spent in an attempt to locate folders that are not at the location shown in
PCACS.

CONCLUSIONS AND RECOMMENDATIONS
We found that the NRC generally maintained and accounted for Title II case folders in
accordance with SSA's policies and procedures. We identified 13 folders as improperly
recorded in PCACS; however, the 13 folders had not been through NRC's purification
process. As long as the NRC continues the purification process, we believe folders
improperly recorded in PCACS will be identified and the problems corrected. We also
believe that the NRC has an opportunity to improve controls over its folder inventory by
updating the folder location in PCACS for all folders that depart and arrive at the NRC.

We recommend that the NRC:

1. Destroy the seven folders that meet the criteria for destruction.

2. Update PCACS to indicate the NRC as the current location for the two folders
   showing a “QUES QUES” location and the two folders recorded as stored at a PSC
   location.

3. Associate the folders for the two SSNs that show different locations at the NRC.

4. Determine if it is financially feasible to update the folder location in PCACS for all
   folders that depart and arrive at the NRC and take appropriate action.
Page 6 – Ramona Schuenemeyer

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with our recommendations. SSA
completed the feasibility study we suggested in recommendation number 4. Based on
the study, SSA determined it was not financially feasible to update the folder locations in
PCACS for all folders that depart and arrive at the NRC. We appreciate SSA’s timely
completion of this feasibility study and we recognize their resource concerns. However,
the potential for misplaced or lost folders will continue to exist unless all folder locations
are updated in PCACS when they depart and arrive at the NRC. (See Appendix D for
the Agency’s comments.)




                                                      S
                                                  Steven L. Schaeffer
                                    Appendices
Appendix A – Acronyms

Appendix B – Background, Scope and Methodology

Appendix C – Sampling Methodology and Results

Appendix D – Agency Comments

Appendix E – OIG Contacts and Staff Acknowledgments
                                                  Appendix A

Acronyms
CDR     Continuing Disability Review

MACC    Management Assistance and Concepts Corp

MBR     Master Beneficiary Record

NRC     National Records Center

OIG     Office of the Inspector General

PCACS   Processing Center Action Control System

PSC     Program Service Center

SSA     Social Security Administration

SSN     Social Security Number

WBFSO   Wilkes-Barre Folder Servicing Operation
                                                                         Appendix B

Background, Scope and Methodology
Background
The Social Security Administration (SSA)
strives to deliver high-quality, citizen-centered
service.1 One way to measure good customer
service is through the timeliness of SSA’s
actions. SSA’s ability to promptly react is often
directly dependent on its ability to retrieve
historical claim information. Historical files may
be needed for a variety of reasons, such as
new claims, appeals, attorney reviews and
litigation, and continuing disability reviews
(CDR). For disability cases subject to a CDR,
SSA personnel need the prior Title II disability
folder to determine whether the beneficiary’s          Entrance to cave housing NRC Space
medical condition has improved. SSA’s ability
to quickly find case folders is an important part in upholding the integrity of SSA’s
disability determinations and continuing payments. Finding or replacing missing
medical folders is costly. Even more costly is the erroneous continuation of Title II
disability benefits to an individual who is no longer disabled but continues to receive
benefits because SSA personnel cannot locate the medical folder containing prior
diagnostic information.

SSA stores case folders at three major folder storage locations: the Rolling Heights
Megasite, Wilkes-Barre Folder Servicing Operation (WBFSO), and the National Records
Center (NRC). The Office of the Inspector General (OIG) agreed to review these folder
storage locations after two regional State disability determination groups alleged that
the unavailability of case folders had seriously hampered efforts to perform CDRs. In
reviews of the Rolling Heights Megasite and the WBFSO, the OIG identified case
folders were missing or improperly recorded in the electronic inventory system. The
NRC was the final location reviewed.

Approximately 24 million Title II case folders are stored at the NRC. Field offices,
Disability Determination Services, hearing offices, and program service centers (PSC)

1
    SSA’s Strategic Plan 2003-2008.




                                             B-1
routinely request case folders from the NRC to facilitate initial and post-entitlement
actions. SSA hired a contractor to provide all clerical and file support involved in filing
and retrieving individual folders. The contractor at the NRC is responsible for refiling,
recalling, dropfiling, sequencing, and merging folders along with purification and
destruction services.2

Processing Center Action Control System (PCACS) is a software system used by SSA
as a case control system to pinpoint the exact physical location and movement of SSA’s
millions of folders.

Scope and Methodology
In performing our audit, we:

    •   Reviewed the Program Operations Manual
        System instructions for storing and accessing
        Title II folders.

    •   Reviewed prior OIG audit work related to SSA
        folder storage.
                                                                    Aisle of Boxes at NRC
    •   Interviewed Mid-America Program Service
        Center staff to obtain an understanding of PCACS, the NRC’s electronic
        inventory system.

    •   Interviewed SSA and contractor personnel involved in the folder storage and
        retrieval systems at the NRC.

    •   Reviewed folder storage and retrieval operations at the NRC.

    •   Evaluated the existing controls, policies, and procedures related to folder
        processing at the NRC.

    • Performed tests of the electronic and physical inventories. In addition, we
        projected the results of our electronic and physical inventory tests to the
        population of Title II case folders. See Appendix B for a detailed description of
        our sampling methodology.

2
 The current contractor at the NRC is AHTNA Government Service Corp, along with Management
Assistance and Concepts Corp (MACC), collectively known as AHTNA-MACC. The current contract was
entered into on August 1, 2001 and extends for 5 years, with the option to change terms of the contract
each year.




                                                  B-2
Generally, we determined that the computer-generated data used for our audit were
sufficiently reliable to meet our audit objective. This assessment was based on tests we
performed on the completeness, accuracy, and validity of the PCACS inventory system.
While we tested the reliability of the NRC’s computerized PCACS inventory, we did not
determine the reliability of the entire PCACS system or evaluate internal controls over
the system. The issues we identified with the completeness and accuracy of the data
are disclosed in the results of review section of this report.

The entity audited was the NRC within the Processing Center Operations in the Kansas
City Regional SSA Office. We performed our audit at the NRC in Independence,
Missouri and Office of Audit in Kansas City, Missouri, from July 2003 to October 2003.
We conducted our audit in accordance with generally accepted government auditing
standards.




                                          B-3
                                                                         Appendix C

Sampling Methodology and Results
                                     Methodology

                              Test of Electronic Inventory

To test the electronic inventory, we traced a statistical sample of 300 folders recorded in
Processing Center Action Control System (PCACS) as located at the National Records
Center (NRC) on August 5, 2003, to their physical location within the facility.

        Universe            Universe       Sample      Selection Date        Selection
                              Size          Size                              Criteria
 All folders in PCACS      24,105,937       300         August 5, 2003     Social Security
 coded “Cave File”                                                         number (SSN)

                               Test of Physical Inventory

To test the physical inventory, we traced a sample of 300 folders physically located at
the NRC facility on August 12, 2003, to PCACS. We selected the first 5 folders in each
of the 60 file locations and recorded the SSNs. We then verified the folder was
appropriately listed in the PCACS computerized inventory.

        Universe            Universe       Sample       Selection Date        Selection
                              Size          Size                               Criteria
 All folders in PCACS      24,105,937       300        August 12, 2003     First 5 folders in
 coded “Cave File”                                                             each file

Since we did not manually count the inventory of folders on August 12, 2003, we relied
on the total number of folders identified in the computerized inventory system on
August 5, 2003 for our universe size. There should not be a significant variance in the
total number of case folders at the NRC on these two dates.




                                            C-1
                                       Results

                       Results of Test of Electronic Inventory

In our review, the 300 sampled case folders identified in PCACS as being located at the
NRC were found at the correct location.

                        Results of Test of Physical Inventory

 Results from Test of the Sample       Projected     Projection     Projection Upper
    Physical Inventory     Error         Error      Lower Limit           Limit
 Folders that should have    7          562,472       265,192           1,045,681
 been destroyed
 Folders with an improper    6          482,119       210,807           942,324
 location on PCACS

All projections were made at the 90-percent confidence level.




                                          C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      February 9, 2004                                                     Refer To:

To:        Steven L. Schaeffer
           Assistant Inspector General for Audit

From:      Ramona Schuenemeyer
           Acting Regional Commissioner
           Kansas City

Subject:   Inventory Review at the National Records Center (A-07-04-20426)
           Kansas City Comments


           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be referred to R.
           Stewart Bent, Director, Social Security Administration National Records Center (SSANRC) at
           816-257-9689.

           Attachment:
           Kansas City Response




                                                        D-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE OFFICE
OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “INVENTORY REVIEW AT
THE NATIONAL RECORDS CENTER” (A-07-04-20426)

We appreciate the opportunity to comment on the subject draft report. The report’s findings
confirm our own reviews and analysis that the National Records Center (NRC) maintains and
accounts for Title II case folders in accordance with SSA’s policies and procedures.
Furthermore, the NRC’s oversight of the AHTNA-MACC Corporation ensures prompt service
with excellent quality.

We are grateful for the opportunity to explain the work and processes at the NRC. We are proud
of this large-scale operation that provides timely, accurate service to field offices, payment
centers, the Megasite, Hearings and Appeals offices, other SSA components and the Veteran’s
Administration.


Recommendation 1

Destroy the seven folders that meet the criteria for destruction.

SSA Comment: We agree and took action on the seven identified folders. This was completed
on February 9, 2004.

We further analyzed OIG’s projected annual storage costs of $35,000 that could accrue from this
problem. We note that many of the incorrect reads were in files that were transferred as a group
from another location. Re-scanning these files would have been cost-prohibitive. We appreciate
that OIG’s conclusion noted NRC has a purification process (recently accelerated) and
acknowledges this will result in identifying and correcting the status of improperly recorded
folders.

We further note that 4 of the 13 errors were for folders in the WN-4 file. This is one of those
transferred files and will be undergoing purification this summer. File WN-4 has approximately
135,000 folders (about 0.56% total stored in NRC). Two of the seven folders that should have
been destroyed were from this file. This will affect both projected error rates and storage cost
computations. We believe that the projection’s lower limit may be closer to the actual numbers
we will find in those files and that the first year’s cost for extra storage would be $16,3081.
Regardless of which projection is used, these costs are not an ongoing annual cost but will
decrease each year as more of the files are purified.

NRC’s increased rate of purification of this and similar files received en masse will reduce the
extra storage costs considerably in the coming years.



1
 OIG’s lower limit projection on folders that should have been destroyed but may still be in boxes is 265,192.
Using a cost of $1.23 to store a box of 20 folders and figuring 13,259 extra boxes brings a current year storage cost
of $16,308.


                                                         D-2
Recommendation 2

Updates PCACS to indicate the NRC as the current location for the two folders showing a
“QUES QUES” location and the two folders recorded as stored at a PSC location.

SSA Comment: We agree. These actions were completed on February 9, 2004.


Recommendation 3

Associates the folders for the two SSNs that show different locations at the NRC.

SSA Comment: We agree. These actions were completed on February 9, 2004.


Recommendation 4

Determine if it is financially feasible to update the folder location in PCACS for all folders
that depart and arrive at the NRC and take appropriate action.

SSA Comment: We have determined that the costs do not justify the potentially small
improvement in accuracy.

Of the 600 SSNs reviewed, there were five SSNs reading to the PSC and two SSNs with
duplicate folders in the NRC. One of the PSC records should have been destroyed. The error
rate for the reviewed SSNs is 1%. We looked at the costs of re-scanning all new and re-filed
folders upon receipt in the NRC plus scanning all folders in closed files transferred to NRC and
determined the added process is cost prohibitive.

Note that the two SSNs that had duplicate folders were from WN-4 file mentioned in
Recommendation 1 as a file sent en masse to NRC. Again, this is a small file that contains
around 135,000 folders (0.56% of the NRC total) and will be undergoing purification this
summer. This problem, along with similar problems in closed files received from other
locations, is not representative of the accuracy of the reads at NRC. Any errors found during the
on-going purification process are promptly corrected.

Only one folder of the seven in error had been sent to NRC as an active file or re-file.

Current procedure has clericals in the PSCs updating all the folder locations in PCACS before
shipment to NRC. Re-scanning in the NRC would be a duplication of effort without a guarantee
of correcting improper reads while having the potential to introduce new errors on properly
updated folders.

By re-scanning, we project the additional costs to the Agency could exceed $1 million per year
either in increased contractor costs or additional SSA clerical employees hired at the NRC. That
is, to accomplish re-scanning the 30,000 to 60,000 folders received each day could require up to



                                                D-3
30 additional clericals plus additional leads, supervisors and computer equipment2. For example,
30 clerical employees at GS-4, Step 5, according to OPM’s Salary Table 2004-KC ($29,859)
would have a salary of $895,770 before we consider the salaries of leads and supervisors. A
contractor could bid lower or higher. At best, this added expense would only result in a very
small incremental increase in the accuracy rate above 99%.

SSA strives for the highest quality in maintaining and storing folders at the NRC. PSC clericals
receive training and reminders on scanning and boxing folders going to NRC. PSCs review their
staff to ensure the quality of the work. The NRC’s Quality Assurance Technicians (QATs)
perform sample reviews on incoming folders. And, as stated above, the NRC’s ongoing
purification process should identify and correct any improperly recorded folders. These steps
ensure that the accuracy of location reads in the NRC will remain high.

[SSA also provided technical comments which we addressed in the report as appropriate.]




2
 30,000 to 60,000 folders per day fill about 1,500 to 3,000 boxes using an average of 20 folders per box. Scanning
at 5 minutes per box results in 125 to 250 hours work each day. This would require an average of 30 clericals = 30 x
7hrs = 210 hours each day.


                                                        D-4
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

In addition to those named above:

   Ronald Bussell, Lead Auditor

   Tonya Coffelt, Auditor

   Khristan Kaufman, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-04-20426.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Acting Regional Commissioner, Region VII, Kansas City
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program
